           "s£aVIC£.f°b


 ..
..
if
~
     (:I~'                         DEPARTMENT OFHEALTH
                                 DEPARTMENT OF   HEALTH&.
                                                        &. HUMA
                                                           HUMANSERVICES
                                                                 SERVICES                                                                            Office
                                                                                                                                                      OfficeofofInspector
                                                                                                                                                                 InspectorGeneral
                                                                                                                                                                           General
 'ó
      "~...~                                                                                                                                         Washington,
                                                                                                                                                      Washington,D.C.
                                                                                                                                                                  D.C.20201
                                                                                                                                                                       20201
           ""4Y.IO
         "r4"oiIIQ
     ..+...:is.Rvic...b~.


                                                                                        FEB -
                                                                                       FE - 5 5 2009
                                                                                              2009




                            TO:
                            TO:                  CurtisL.L.Coy
                                                 Curis      Coy
                                                 Acting Assistat
                                                 Acting  Assistant Secreta
                                                                   Secretary
                                                 Administration  for Childrenand
                                                 Administration for Children  and Familes
                                                                                  Families


                            FROM:
                            FROM:                 Daniel         R. ~
                                                  Daniel R. Levinson      ,e, ~
                                                                     Levinson ~ ¿, ~

                                                   Inspector General
                                                  Inspector  General


                            SUBJECT:
                            SUBJECT:              Review of
                                                  Review ofAdministration
                                                            Administration for
                                                                           for Children
                                                                               Children and
                                                                                        and Famlies
                                                                                            FamiliesGrant
                                                                                                     GrantCloseout
                                                                                                           CloseoutProcedures
                                                                                                                    Procedures
                                                  (A-02-07-02000)
                                                  (A-02-07-02000)


                            The attached
                            The          final report
                                attched final   report provides
                                                       provides the results of
                                                                the results ofour
                                                                               ourreview
                                                                                   reviewof
                                                                                          ofthe
                                                                                             theAdministration forChildren
                                                                                                 Admstration for  Children
                            and Families
                            and    Famlies (ACF)  (ACF) grantgrant closeout
                                                                       closeout procedures.
                                                                                     procedures. Pursuat  PursuanttotoFederal
                                                                                                                       Federal regulations
                                                                                                                                regulations and
                                                                                                                                            and policy, ACF
                                                                                                                                                policy, ACF
                            is required, as a general matter, to close grants within 180 days after the end of the grant period
                            is required, as a general matter, to close grants withn 180 days after the end of 

                                                                                                                                                     penod
                            (the   cutoff
                            (the cutoff date).date).

                            Within      ACF, the Division of Discretionary
                            With ACF, the Division of 
                    Discretionar Grants of
Grants of the         Office
                                                                                                                  the Offce of
     of Grants Management or a
                            Grants
                            Grants Management
                                         Management Regional  RegionalUnit   Unit (discretionar
                                                                                      (discretionary office)  offce)administers              discretionarygrants,
                                                                                                                          adsters discretionar             grants, and
                                                                                                                                                                    and

                            the   Division
                            the Division of 

                                                 of  Mandatory          Grants
                                                     Mandatory Grants of
           of  the
                                                                                        the    Office
                                                                                             Office of
  of   Grants
                                                                                                             Grants       Mangement
                                                                                                                         Management            (mandatory
                                                                                                                                               (mandatory   offce)
                                                                                                                                                            office)
                            administers        mandatory grants. The ACF Office of Financial                                       Division of
Division of Financial
                                                                                                                              Services,
                                                                                                              Financial Services,
                            administers mandatory grants. The ACF Offce of 


                            Integrity
                            Integrty (DFI),(DFI), assists
                                                      assiststhe  thediscretionary
                                                                         discretionar and      andmandatory
                                                                                                      mandatoryoffices  offcesininclosingclosinggrants.
                                                                                                                                                   grants.Within  the
                                                                                                                                                           With the
                            Department's          Program Support Center, the Division of
                            Deparent's Program Support Center, the Division of 

                                                                                                                     Financial        Operations     (DFO)
                                                                                                                                      Operations (DFO)       is
                            responsible        for   recordmg         grant    activity     on   the    ACF    general
                            responsible for recordmg grant activity on the ACF general ledger, and the Division of 

                                                                                                                            ledger,                             Payment
                                                                                                                                         and the Division of Payment
                            Management
                            Management (DPM)      (DPM) is    is responsible
                                                                  responsible for    for recording
                                                                                            recording grant grant activity
                                                                                                                     activity in  in the
                                                                                                                                      the Payment
                                                                                                                                             Payment Management
                                                                                                                                                       Management
                            System
                            System (payment system) and closing grants afer receiving closeout instrctions from
                                        (payment         system)       and   closing      grants      after  receiving       closeout       instructions from the
                                                                                                                                                                the
                            discretionary        office     or  DFO.
                            discretionar office or DFO. For a grant 

                                                                            For   a  grant     to   be  closed
                                                                                                to be closed in   in  the   payment         system,
                                                                                                                                            systém, the grant award,
                                                                                                                                                     the grant  award,
                            expenditure,
                            expenditue, and     and drawdown
                                                        drawdown amounts  amountsmust    mustbe     beequal.
                                                                                                        equa.
                            Our
                            Ourobjective
                                 objectivewas
                                           wasto
                                               todetermine
                                                 determine why
                                                            why ACF
                                                                 ACF grants
                                                                       grants identified
                                                                               identified by
                                                                                          by DPM
                                                                                             DPM asas eligible
                                                                                                      eligible for
                                                                                                                for closeout
                                                                                                                    closeoutas
                                                                                                                             asof
                                                                                                                               of
                            September  30, 2006, were not closed in the payment   system   by the cutoff dates.
                            September 30, 2006, were not closed in the payment system by the cutoff dates.

                            The
                             The9,877
                                  9,877grants
                                        grantsidentified
                                               identified by by DPM
                                                                DPM as as eligible
                                                                          eligible for
                                                                                   for closeout
                                                                                       closeout as
                                                                                                as of
                                                                                                   of September
                                                                                                      September 30,
                                                                                                                  30, 2006,
                                                                                                                      2006, which
                                                                                                                             which had
                                                                                                                                   had
                            unexpended
                             unexpended balances totaling more than $472 milion, were not closed in the payment systemby
                                         balances     totaling more  than  $472  million,  were not closed in the payment   system  by
                            the
                             thecutoff
                                 cutoffdates
                                        datesfor
                                              for( several
                                                    severalreasons:
                                                             reasons:
                                                     (




                                 •. For
                                     For6,742
                                           6,742discretionar
                                                     discretionarygrants,   grants, the the discretionar
                                                                                             discretionary offce    officedid
                                                                                                                           didnot
                                                                                                                               notintiate
                                                                                                                                   initiatecloseout,
                                                                                                                                            closeout, either
                                                                                                                                                      either on
                                                                                                                                                             on
                                     its own or in conjunction with DFI, because ofa staffing shortage. Closeout of the
                                      its own or in conjunction with DFI, because ofa staffing shortge. Closeout of 

                                                                                                                                                      the
                                     remaining
                                      remaining255      255discretionary
                                                               discretionar grants  grantswas   wasinitiated
                                                                                                       initiatedbut   butnot
                                                                                                                          notcompleted
                                                                                                                              completed  primarily because ofof
                                                                                                                                           prianly because
Page 2 – Curtis L. Coy


       differences among the grant award, expenditure, and drawdown amounts in the payment
       system.

   •   For 2,676 mandatory grants, the mandatory office did not initiate closeout, either on its
       own or in conjunction with DFI, because the mandatory office had no grant closeout
       procedures or because the grant award, expenditure, and drawdown amounts in the
       payment system differed. Closeout of the remaining 204 mandatory grants was initiated
       but not completed primarily because the grant amounts were not in balance in the
       payment system.

The discretionary and mandatory offices, as well as DFO, lacked follow-up procedures to
determine whether DPM had actually closed grants for which closeout was initiated.

We recommend that ACF use the information in this report to ensure that grants are closed in a
timely manner and to eliminate the backlog of grants eligible for closeout.

In its comments on our draft report, ACF described actions that it had taken or planned to take to
implement our recommendation.

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C. § 552, as amended by
Public Law 104-231, Office of Inspector General reports generally are made available to the
public to the extent the information is not subject to exemptions in the Act (45 CFR part 5).
Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact Joseph J. Green, Assistant Inspector General for Financial
Management and Regional Operations, at (202) 619-1157 or through e-mail at
Joe.Green@oig.hhs.gov. Please refer to report number A-02-07-02000 in all correspondence.


Attachment
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  REVIEW OF ADMINISTRATION 

  FOR CHILDREN AND FAMILIES 

 GRANT CLOSEOUT PROCEDURES





                    Daniel R. Levinson

                     Inspector General 


                      February 2009

                      A-02-07-02000

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                            Notices
                            Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information
                                              Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
                                                             part 5).
information is not subject to exemptions in the Act (45 CFR part

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices
                                              practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Two divisions of the Department of Health and Human Services (HHS), Administration for
Children and Families (ACF), are responsible for administering ACF grants. The Division of
Discretionary Grants of the Office of Grants Management or a Grants Management Regional
Unit (discretionary office) administers discretionary grants. The Division of Mandatory Grants
of the Office of Grants Management (mandatory office) administers mandatory grants. The ACF
Office of Financial Services, Division of Financial Integrity (DFI), assists the discretionary and
mandatory offices in closing grants.

Within the HHS Program Support Center, the Division of Financial Operations (DFO) is
responsible for recording grant activity on the ACF general ledger, and the Division of Payment
Management (DPM) is responsible for recording grant activity in the Payment Management
System (payment system) and closing grants after receiving closeout instructions from the
discretionary office or DFO.

Pursuant to Federal regulations and policy, ACF is required, as a general matter, to close grants
within 180 days after the end of the grant period (the cutoff date). For a grant to be closed in the
payment system, the grant award, expenditure, and drawdown amounts must be equal.

OBJECTIVE

Our objective was to determine why ACF grants identified by DPM as eligible for closeout as of
September 30, 2006, were not closed in the payment system by the cutoff dates.

SUMMARY OF FINDINGS

The 9,877 grants identified by DPM as eligible for closeout as of September 30, 2006, which had
unexpended balances totaling more than $472 million, were not closed in the payment system by
the cutoff dates for several reasons:

   •   For 6,742 discretionary grants, the discretionary office did not initiate closeout, either on
       its own or in conjunction with DFI, because of a staffing shortage. Closeout of the
       remaining 255 discretionary grants was initiated but not completed primarily because of
       differences among the grant award, expenditure, and drawdown amounts in the payment
       system.

   •   For 2,676 mandatory grants, the mandatory office did not initiate closeout, either on its
       own or in conjunction with DFI, because the mandatory office had no grant closeout
       procedures or because the grant award, expenditure, and drawdown amounts in the
       payment system differed. Closeout of the remaining 204 mandatory grants was initiated
       but not completed primarily because the grant amounts were not in balance in the
       payment system.



                                                  i
The discretionary and mandatory offices, as well as DFO, lacked follow-up procedures to
determine whether DPM had actually closed grants for which closeout was initiated.

RECOMMENDATION

We recommend that ACF use the information in this report to ensure that grants are closed in a
timely manner and to eliminate the backlog of grants eligible for closeout.

ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS

In its comments on our draft report, ACF described actions that it had taken or planned to take to
implement our recommendation. ACF’s comments, except for technical comments, are included
as Appendix B.




                                                ii
                                                  TABLE OF CONTENTS
                                                                                                                                 Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Regulations and Departmental Policies Governing Grant Closeout..................1
              Grant Life Cycle ................................................................................................2
              Discretionary Office Grant Closeout Process ....................................................2
              Mandatory Office Grant Closeout Process ........................................................3
              Assistance Provided by the Division of Financial Integrity ..............................3
              Division of Financial Operations Grant Closeout Process ................................3

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................3
               Objective ............................................................................................................3
               Scope..................................................................................................................4
               Methodology ......................................................................................................4

FINDINGS AND RECOMMENDATION.............................................................................5

          DISCRETIONARY GRANTS .....................................................................................5
               Closeout of Grants Not Initiated .......................................................................6
               Closeout of Grants Initiated but Not Completed ...............................................6

          MANDATORY GRANTS ............................................................................................7
              Closeout of Grants Not Initiated .......................................................................8
              Closeout of Grants Initiated but Not Completed ...............................................8

          CONCLUSION .............................................................................................................9

          RECOMMENDATION .................................................................................................9

          ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS ..................9


APPENDIXES

          A – NUMBER OF DAYS THAT GRANTS REMAINED OPEN AFTER
             CUTOFF DATES

          B – ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS




                                                                    iii
                                              INTRODUCTION

BACKGROUND

Two divisions of the Department of Health and Human Services (HHS), Administration for
Children and Families (ACF), are responsible for administering ACF grants. The Division of
Discretionary Grants of the Office of Grants Management or a Grants Management Regional
Unit (discretionary office) administers discretionary grants. 1 The Division of Mandatory Grants
of the Office of Grants Management (mandatory office) administers mandatory grants. 2 These
offices are responsible for recording grant activity in the Grants Administration Tracking and
Evaluation System (grants management system).

Within the HHS Program Support Center, the Division of Financial Operations (DFO) is
responsible for recording grant activity on the ACF general ledger, and the Division of Payment
Management (DPM) is responsible for recording grant activity in the Payment Management
System (payment system) and closing grants after receiving closeout instructions from the
discretionary office or DFO.

Regulations and Departmental Policies Governing Grant Closeout

Pursuant to 45 CFR § 92.50(a), which applies to most HHS grants to State and local
governments, Federal agencies are required to close out the grant award when “all applicable
administrative actions and all required work of the grant has been completed.” Under 45 CFR
§ 92.50(b), grantees are required to submit all financial, performance, and other required reports
within 90 days after the expiration or termination of the grant. The Federal agency may extend
these reporting deadlines upon request. After receiving these reports, the Federal agency must
make all adjustments to allowable costs within 90 days (45 CFR § 92.50(c)). Similar regulatory
requirements at 45 CFR § 74.71 apply to the closeout of HHS grants awarded to nonprofit
organizations. Therefore, ACF generally must close discretionary and mandatory grants within
180 days after the end of the grant period (referred to as the “cutoff date” in this report). 3 We
recognize that there may be certain instances in which ACF, in accordance with regulatory

1
 Discretionary grants are awarded under programs that permit ACF, in accordance with legislation, to exercise
judgment in approving the project, project period, budget period, grantee, and award amount (HHS Grants Policy
Directive (GPD) 1.02). The Grants Management Regional Units administer the Head Start, Transitional Living,
Basic Centers, and Street Outreach discretionary grant programs. Both the Grants Management Regional Units and
the Division of Discretionary Grants administer the Early Head Start discretionary grant program. The Division of
Discretionary Grants administers all other discretionary grants.
2
 Mandatory grants statutorily require a Federal agency to award funds “if the recipient (usually a State) submits an
acceptable State Plan or application and meets the eligibility and compliance requirements of the statutory and
regulatory provisions of the grant program. Mandatory grants include open-ended entitlement grants, closed-ended
grants, and block grants” (GPD 1.02). Examples of ACF mandatory grant programs include Adoption Assistance,
Foster Care, and Child Support Enforcement.
3
 GPD 4.02.B.1.d interprets 45 CFR §§ 92.50 and 74.71 to require that grants generally be closed within 180 days of
the end of grant support. Although the specific closeout process described in this GPD applies only to discretionary
grants (and the GPD governing mandatory grants has not yet been issued), the 180-day cutoff date referred to in
GPD 4.02.B.1.d is an interpretation of regulations that apply to both mandatory and discretionary grants.

                                                          1
requirements or policy guidance, may need to take further administrative actions that would
prevent the closing of a specific grant within 180 days.

Grant Life Cycle

At the inception of a grant, the discretionary or mandatory office issues a Notice of Grant Award
or Financial Assistance Award to the grantee; establishes the grant award in the grants
management system; and transmits the grant award information to DFO, which establishes the
grant on the ACF general ledger. DFO then transmits the grant award information to DPM,
which establishes the grant in the payment system.

The grantee draws down funds from the payment system electronically and reports expenditures
to DPM as well as to the discretionary or mandatory office. Regardless of whether the grantee
maintains expenditure data on the cash or accrual basis of accounting, for block grant awards, 4
DPM automatically records expenditures that equal drawdowns when the grantee requests funds.
For non-block-grant awards, the grantee is required to send DPM a quarterly cash-basis report of
expenditures, the PSC-272. Pursuant to 45 CFR §§ 74.71 and 92.50, the grantee must also report
final grant expenditures to the discretionary or mandatory office within 90 days after the end of
the grant period so that the grant can be closed.

For a grant to be closed in the payment system, the award, expenditure, and drawdown amounts
must be equal. After receiving a closeout code, DPM’s practice is to leave the grant open for up
to one quarter until it receives the final PSC-272 from the grantee. If the grant award,
expenditure, and drawdown amounts remain in balance after the grantee submits the PSC-272
and if the closeout code is the final transaction on the grant, the grant automatically closes in the
payment system.

Discretionary Office Grant Closeout Process

According to written procedures for the closeout of grants, 5 discretionary grants generally are
required to be closed by the grant cutoff dates. Pursuant to these procedures, the discretionary
office adjusts the grant award in the grants management system to match the final expenditure
data received from the grantee. If the discretionary office does not receive the final expenditure
data from the grantee, the discretionary office adjusts the grant award in the grants management
system to match the final expenditure data reported to DPM by the grantee. The discretionary
office then transmits the adjustment to DFO and DPM. The discretionary office also reconciles
the grant activity in the grants management system to the grant activity in the payment system
and resolves any differences by contacting the grantee. Finally, the discretionary office
electronically submits a closeout code through DFO to DPM so that the grant can be closed on
the ACF general ledger and in the payment system.

4
 Block grants are mandatory grants that are typically awarded to States or local governing agencies with minimal
Federal administrative restrictions so that the grantees are free to target resources to meet the needs of their citizens
(GPD 1.02). An example of a block grant is the Low Income Home Energy Assistance Program.
5
Page 21 of the “Grants Management Cycle Memo,” dated September 30, 2006, reflects closeout procedures that
were in place for the prior year.

                                                            2
Mandatory Office Grant Closeout Process

The mandatory office does not have any procedures for closing grants. 6 The mandatory office’s
practice is to adjust the grant award in the grants management system to match the final
expenditure data received from the grantee. If the mandatory office does not receive the final
expenditure data from the grantee, the mandatory office adjusts the grant award to match the
most recent expenditure data received from the grantee. The mandatory office then transmits the
adjustment to DFO and DPM. The mandatory office does not reconcile the grant activity in the
grants management system to the grant activity in the payment system, nor does it submit a
closeout code so that the grant can be closed on the ACF general ledger and in the payment
system.

Assistance Provided by the Division of Financial Integrity

On a semiannual basis, the ACF Office of Financial Services, Division of Financial Integrity
(DFI), assists the discretionary and mandatory offices in closing grants by identifying grants for
which the grant award, expenditures, and drawdown amounts are equal in the payment system.
DFI works with the discretionary or mandatory office to confirm that these grants should be
closed and provides DFO with a list of the grants. DFO then closes the grants on the ACF
general ledger and electronically submits a closeout code to DPM so that the grants can be closed
in the payment system.

Division of Financial Operations Grant Closeout Process

DFO does not have written procedures for closing grants. However, on a quarterly basis, DFO
attempts to close discretionary and mandatory grants that DPM has identified as eligible for
closeout. 7 To close a grant, DFO adjusts the grant award on the ACF general ledger and
electronically submits the adjustment to DPM, which makes the award and expenditures equal in
the payment system. Although DFO does not reconcile the grant activity in the grants
management system to the grant activity in the payment system, it does close the grant on the
ACF general ledger. DFO then electronically submits a closeout code to DPM so that the grant
can be closed in the payment system.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine why ACF grants identified by DPM as eligible for closeout as of
September 30, 2006, were not closed in the payment system by the cutoff dates.



6
 According to the “Grants Management Cycle Memo,” dated September 30, 2006, the closeout of mandatory grants
is the responsibility of DPM.
7
 DPM provides DFO with a quarterly report that is generated by the payment system and that lists all of the grants
that DPM considers to be eligible for closeout.

                                                         3
Scope

Our audit covered 9,877 ACF grants with unexpended balances totaling $472,155,156 that, as of
September 30, 2006, had not been closed in the payment system by the cutoff dates. 8 We did not
perform an indepth review of the internal control structure of ACF, DFO, or DPM. Instead, we
gained an understanding of ACF, DFO, and DPM procedures related to grant closeout. We also
did not determine whether grantees had submitted final financial reports to the discretionary or
mandatory office within 90 days after the end of the grant period.

We performed our fieldwork at ACF headquarters in the District of Columbia and at DPM
headquarters in Rockville, Maryland.

Methodology

To accomplish our objective we:

    •   reviewed relevant Federal laws, regulations, and guidance;

    •   gained an understanding of the roles of the discretionary office, mandatory office, DFI,
        DFO, and DPM in the grant closeout process;

    •   obtained a file of 10,261 ACF grants with unexpended balances totaling $654,504,361
        that DPM had identified as eligible for closeout as of September 30, 2006;

    •   eliminated from the file:

            o 322 mandatory grants that were not actually eligible for closeout,

            o 44 mandatory grants and 5 discretionary grants that, as of September 30, 2006,
              had not been open past the cutoff dates, and

            o 13 mandatory grants that fell outside the audit period;

    •   identified a population of 9,877 grants (6,997 discretionary grants and 2,880 mandatory
        grants) with unexpended balances totaling $472,155,156 that, as of September 30, 2006,
        had not been closed in the payment system by the cutoff dates;

    •   determined how long each of the 9,877 grants remained open in the payment system after
        the cutoff dates;

    •   selected a judgmental sample of 27 of the 6,997 discretionary grants, representing
        $29,769,507 (21 percent) of the total unexpended discretionary grant balances, to
        determine the specific reasons for not closing the grants in the payment system; and

8
 Unexpended balances represent the difference between the grant award and expenditure amounts in the payment
system.

                                                       4
   •   selected a judgmental sample of 44 of the 2,880 mandatory grants, representing
       $207,275,476 (62 percent) of the total unexpended mandatory grant balances, to
       determine the specific reasons for not closing the grants in the payment system.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATION

The 9,877 grants identified by DPM as eligible for closeout as of September 30, 2006, which had
unexpended balances totaling $472,155,156, were not closed in the payment system by the cutoff
dates for several reasons:

   •   For 6,742 discretionary grants, the discretionary office did not initiate closeout, either on
       its own or in conjunction with DFI, because of a staffing shortage. Closeout of the
       remaining 255 discretionary grants was initiated but not completed primarily because of
       differences among the grant award, expenditure, and drawdown amounts in the payment
       system.

   •   For 2,676 mandatory grants, the mandatory office did not initiate closeout, either on its
       own or in conjunction with DFI, because the mandatory office had no grant closeout
       procedures or because the grant award, expenditure, and drawdown amounts in the
       payment system differed. Closeout of the remaining 204 mandatory grants was initiated
       but not completed primarily because the grant amounts were not in balance in the
       payment system.

The discretionary and mandatory offices, as well as DFO, lacked follow-up procedures to
determine whether DPM had actually closed grants for which closeout was initiated.

Appendix A contains details on the number of days that grants remained open after the cutoff
dates.

DISCRETIONARY GRANTS

Table 1 shows that closeout of 6,742 discretionary grants was not initiated and that closeout of
the remaining 255 discretionary grants was initiated but not completed.

                       Table 1: Discretionary Grant Closeout Actions
                                                        No. of       Unexpended
                        Closeout Action                 Grants        Balance
              Closeout not initiated                    6,742         $135,832,930
              Closeout initiated but not completed        255            4,301,139
                Total                                   6,997         $140,134,069

                                                 5
Closeout of Grants Not Initiated

Neither the discretionary office nor DFO initiated closeout of 6,742 discretionary grants with
unexpended balances totaling $135,832,930. Discretionary office officials told us that they did
not initiate closeout, either on their own or in conjunction with DFI, because of a staffing
shortage, which caused a backlog of grants awaiting closeout. As of September 30, 2006, the
grants had been open for an average of 711 days beyond the cutoff dates.

For example, for one sampled grant for which the grant period ended June 30, 2004, the
discretionary office received the grantee’s final expenditure data but did not adjust the grant
award. The discretionary office did not reconcile the grant activity in the grants management
system to the grant activity in the payment system or submit a closeout code through DFO to
DPM so that the grant could be closed on the ACF general ledger and in the payment system. As
a result, the grantee potentially could have accessed over $3 million more than it was authorized.

Prompted by our review, the discretionary office asked the grantee for updated expenditure data
and received the data on June 7, 2007, more than 3 years after the grant period had ended. The
discretionary office then deobligated the grant award by $3,439,743 so that the award equaled
the expenditures. The discretionary office also submitted a closeout code through DFO to DPM
so that the grant could be closed on the ACF general ledger and in the payment system.
However, because the discretionary office did not reconcile the grant activity before submitting
the closeout code, the grant remained open in the payment system. As shown in Table 2, as of
July 11, 2007, the grant award, expenditure, and drawdown amounts in the payment system were
not equal, thereby preventing DPM from closing the grant.

                   Table 2: Payment System Balances for Sampled Grant
                      Grant Award         Expenditures       Drawdowns
                       $560,257.00         $560,257.39       $175,167.00

Closeout of Grants Initiated but Not Completed

The discretionary office, acting either on its own or in conjunction with DFI, or DFO initiated
closeout of 255 discretionary grants with unexpended balances totaling $4,301,139. However,
the grants remained open in the payment system beyond the cutoff dates. Because the
discretionary office and DFO lacked follow-up procedures, they did not know whether DPM had
actually closed the grants.

   •   DPM did not close 228 grants with unexpended balances totaling $4,301,139 because the
       grant award, expenditure, and drawdown amounts were not equal. In some cases, the
       differences were less than $1. As of September 30, 2006, these grants had been open in
       the payment system for an average of 937 days beyond the cutoff dates.

   •   DPM did not close 24 grants with no unexpended balances because the closeout code was
       not the final transaction in the payment system. As of September 30, 2006, these grants



                                                6
       had been open in the payment system for an average of 1,010 days beyond the cutoff
       dates.

   •   DPM scheduled three grants with no unexpended balances for closeout but kept the
       grants open in the payment system because DPM’s practice was to leave grants open for
       up to one quarter after receiving the closeout code. As of September 30, 2006, as a result
       of a delay in receiving the closeout code and DPM’s practice of leaving grants open, the
       grants had been open in the payment system for an average of 561 days beyond the cutoff
       dates.

For example, for one sampled grant for which the grant period ended June 30, 2004, the
discretionary office received the grantee’s final expenditure data on September 29, 2004 (within
the required 90 days). However, the discretionary office did not adjust the grant award in the
grants management system to match the final expenditure data because those data included an
incorrect award amount and an unexpended balance of $0. Therefore, discretionary office
officials did not believe that they needed to adjust the grant award. The discretionary office did
not detect this error because it did not reconcile grant activity in the grants management system
to grant activity in the payment system. As shown in Table 3, when the discretionary office
submitted closeout information to DPM on August 1, 2005, the grant award and reported
expenditures in the payment system differed by $533,465.

                   Table 3: Payment System Balances for Sampled Grant
                       Grant Award        Expenditures        Drawdowns
                        $1,943,312         $1,409,847         $1,409,847

Prompted by our review, the discretionary office deobligated the grant award by $533,465 to
match the final expenditure data. However, as of June 6, 2008, although the grant was in balance
in the payment system, it remained open because the discretionary office had not submitted a
new closeout code.

MANDATORY GRANTS

Table 4 shows that closeout of 2,676 mandatory grants was not initiated and that closeout of the
remaining 204 mandatory grants was initiated but not completed.

                         Table 4: Mandatory Grant Closeout Actions
                                                       No. of       Unexpended
                        Closeout Action                Grants        Balance
              Closeout not initiated                   2,676         $308,259,157
              Closeout initiated but not completed       204           23,761,930
                Total                                  2,880         $332,021,087




                                                 7
Closeout of Grants Not Initiated

Neither the mandatory office nor DFO initiated closeout of 2,676 mandatory grants with
unexpended balances totaling $308,259,157. The mandatory office took no action on its own
because it lacked procedures for closing grants and took no action in conjunction with DFI
because the grant award, expenditure, and drawdown amounts were not equal in the payment
system. As of September 30, 2006, the 2,676 grants had been open for an average of 673 days
beyond the cutoff dates.

For example, for one sampled grant for which the grant period ended March 31, 2004, the
mandatory office did not adjust the grant award to match the grantee’s final expenditure data. In
addition, the mandatory office did not reconcile the grant activity in the grants management
system to the grant activity in the payment system or submit a closeout code because it did not
have any procedures to complete these tasks. As shown in Table 5, the grant award and reported
expenditures in the payment system differed by more than $7 million. As of September 30,
2006, this grant had been open in the payment system for 733 days beyond the cutoff date.

                    Table 5: Payment System Balances for Sampled Grant
                     Grant Award         Expenditures         Drawdowns
                    $245,137,852.00     $238,130,505.57     $238,130,505.57

Closeout of Grants Initiated but Not Completed

DFI, acting on behalf of the mandatory office, or DFO initiated closeout of 204 mandatory grants
with unexpended balances totaling $23,761,930. However, the grants remained open in the
payment system beyond the cutoff dates. Because the mandatory office and DFO lacked follow-
up procedures, they did not know whether DPM had actually closed the grants.

   •   DPM did not close 183 grants with unexpended balances totaling $23,761,960 because
       the grant award, expenditure, and drawdown amounts were not equal. In some cases, the
       differences were less than $1. As of September 30, 2006, these grants had been open in
       the payment system for an average of 2,188 days beyond the cutoff dates.

   •   DPM did not close 21 grants with no unexpended balances because the closeout code was
       not the final transaction in the payment system. As of September 30, 2006, these grants
       had been open in the payment system for an average of 3,138 days beyond the cutoff
       dates.

For example, for one sampled grant, DFO initiated closeout on December 5, 2003, even though
the grant award, expenditure, and drawdown amounts in the payment system differed. (See
Table 6.) As a result, as of September 30, 2006, the grant had been open in the payment system
for 824 days beyond the cutoff date.




                                                8
                   Table 6: Payment System Balances for Sampled Grant
                      Grant Award          Expenditures        Drawdowns
                      $29,600,000.00      $28,598,415.74      $28,594,301.44

CONCLUSION

For 6,742 discretionary grants that were open past the cutoff dates, the discretionary office did
not initiate closeout, either on its own or in conjunction with DFI, because of a staffing shortage.
Closeout of an additional 255 discretionary grants was initiated but not completed primarily
because the grant balances were not equal in the payment system. Moreover, because the
discretionary office and DFO lacked follow-up procedures, they did not know whether DPM had
actually closed grants for which closeout was initiated.

For 2,676 mandatory grants that were open past the cutoff dates, the mandatory office did not
initiate closeout on its own because it had no grant closeout procedures and did not initiate
closeout in conjunction with DFI because the grant balances were not equal in the payment
system. Closeout of an additional 204 mandatory grants was initiated but not completed
primarily because the grant balances were not equal in the payment system. Moreover, because
the mandatory office and DFO lacked follow-up procedures, they did not know whether DPM
had actually closed grants for which closeout was initiated.

RECOMMENDATION

We recommend that ACF use the information in this report to ensure that grants are closed in a
timely manner and to eliminate the backlog of grants eligible for closeout.

ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS

In its comments on our draft report, ACF described actions that it had taken or planned to take to
implement our recommendation. ACF’s comments, except for technical comments, are included
as Appendix B.




                                                 9
APPENDIXES
                                                                                 APPENDIX A


     NUMBER OF DAYS THAT GRANTS REMAINED OPEN AFTER CUTOFF DATES

For the 9,877 grants that should have been closed in the Payment Management System (payment
system), we calculated the number of days that the grants remained open from the cutoff dates
through September 30, 2006.

As shown in Table 1, the 9,418 grants for which closeout was not initiated remained open in the
payment system for an average of 700 days after the cutoff dates.

                       Table 1: Grants for Which Closeout Was Not Initiated
                                                     No. of Grants Open After     Average
                                                         Cutoff Dates for:       No. of Days
                                     Unexpended                          Over      Since
                        No. of         Balance       1–180    181–540      540     Cutoff
     Grant Type         Grants        Per DPM 1      Days       Days     Days      Dates
     Discretionary      6,742         $135,832,930     30      2,054     4,658       711
     Mandatory          2,676          308,259,157    27       1,113     1,536       673
       Total            9,418         $444,092,087     57      3,167     6,194       700

As shown in Table 2, the 459 grants for which closeout was initiated but not completed remained
open in the payment system for an average of 1,537 days after the cutoff dates.

                         Table 2: Grants for Which Closeout Was Initiated
                                                     No. of Grants Open After     Average
                                                         Cutoff Dates for:       No. of Days
                                     Unexpended                          Over      Since
                         No. of        Balance       1–180    181–540      540     Cutoff
      Grant Type         Grants       Per DPM        Days       Days     Days      Dates
      Discretionary       255          $4,301,139      2         39        214        939
      Mandatory           204          23,761,930      0          4        200     2,285
        Total             459         $28,063,069      2         43        414     1,537




1
    DPM = Division of Payment Management.
APPENDIX B
  Page 1 of 3
APPENDIX B
  Page 2 of 3
APPENDIX B
  Page 3 of 3
